Memorandum from the Office of the Inspector General



January 31, 2008

Janet C. Herrin, WT 10D-K

FINAL REPORT – INSPECTION 2007-11023 – REVIEW OF TVA'S DAM SAFETY
PROGRAM



Attached is the subject report for your review and action. As agreed to at the exit
conference on December 19, 2007, we are issuing the report in final. Please advise us of
your planned actions in response to our findings within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Michael A. Driver, Project Manager, at
(423) 751-8158 or Gregory C. Jaynes, Deputy Assistant Inspector General, Inspections, at
(423) 751-7821. We appreciate the courtesy and cooperation received from your staff during
this review.




Robert E. Martin
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

GCJ:HRK:BKA
Attachment
cc (Attachment):
      Peyton T. Hairston, Jr., WT 7B-K
      Tom D. Kilgore, WT 7B-K
      John E. Long, Jr., WT 7B-K
      William R. McCollum, Jr., LP 6A-C
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      OIG File No. 2007-11023
                    Tennessee Valley Authority
                    Office of the Inspector General


Inspection Report



REVIEW OF
TVA'S DAM SAFETY
PROGRAM




Inspection Team                          2007-11023
Michael A. Driver                    January 31, 2008
Heather Kulisek
Jay Piercy
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3
   MEETING FEMA GUIDELINES FOR DAM SAFETY ........................................ 4

   ADHERING TO THE DAM SAFETY INSPECTION PROCESS ........................ 4

   SUPPORTING THE DAM SAFETY INSPECTION PROCESS ......................... 5
    Completion of M&R Items by Their Estimated Completion Date ........................... 5

   FOLLOW-UP ON PREVIOUS AUDIT ............................................................... 7

RECOMMENDATION ..................................................................................... 7




Inspection 2007-11023
Office of the Inspector General                                     Inspection Report


EXECUTIVE SUMMARY
Under the Tennessee Valley Authority (TVA) Act of 1933, as amended, TVA was
authorized to construct, operate, and maintain dams in the Tennessee River
basin. According to the National Inventory of Dams, TVA's dam inventory in
2007 included 49 main dams and 33 dikes and saddle dams. In keeping with its
responsibility, TVA has maintained a dam safety program since its inception.

We reviewed the TVA dam safety inspection process to determine whether it met
federal guidelines for dam safety, was being followed by Dam Safety inspection
personnel, and was being adequately supported by an information database.
Our review covered dam safety inspections at five dams in fiscal years 2006 and
2007. We last audited dam safety during 2001.

In summary, our review determined (1) the inspection process met the Federal
Emergency Management Agency guidelines for periodic dam safety inspection
programs; (2) Dam Safety inspection personnel appeared to adhere to the
process for identifying, monitoring, and correcting inspection deficiencies based
on the five dams we reviewed; and (3) information databases provided adequate
support to manage the inspection process. However, our review found that
(1) 57 out of 81 work orders/requests related to maintenance and repair (M&R)
items identified by the dam safety inspections for the five dams we reviewed
were not completed by the estimated due date stated on the inspection report
and (2) there is a historical trend of not completing M&R items by the estimated
due date.

Our review also determined management has implemented planned corrective
actions in response to the recommendations in our 2001 audit.

We recommend the Senior Vice President of River Operations consider
implementing a prioritization and scheduling procedure to enhance timely
completion of M&R items.




Inspection 2007-11023                                                         Page i
Office of the Inspector General                                                      Inspection Report


BACKGROUND
Under the Tennessee Valley Authority (TVA) Act of 1933, as amended, TVA was
authorized to construct, operate, and maintain dams in the Tennessee River
basin. The Act authorized TVA to operate its dams and reservoirs for the unified
development and regulation of hydroelectric power, flood control, river
navigation, and public recreation. According to the National Inventory of Dams,
TVA's dam inventory in 2007 included 49 main dams and 33 dikes and saddle
dams.

In keeping with TVA's responsibility, a dam safety program has been maintained
since its inception. The program was formalized in 1982 and has been funded
solely by power revenues since fiscal year (FY) 2000. Typically, civil inspections
assess the physical structure of the dams and associated embankments while
mechanical and electrical inspections examine the dams' machinery and
electrical circuitry. Maintenance and repair (M&R) items identified during
inspections are monitored by Dam Safety managers and lead engineers. Dam
Safety has an established, comprehensive inspection schedule to help ensure
the safety and operation of TVA dams (see Figure 1).

TVA's Dams Safety Inspection Schedule

      Interval              Inspection Type             Responsible Party
    Monthly       Civil, Mechanical, & Electrical     Personnel at dam site1
    15 Month      Civil Intermediate (High &          Dam Safety Inspectors
                  Significant hazard dams)
    30 Month      Civil Intermediate (Low hazard      Dam Safety Inspectors
                  dams)
    30 Month      Mechanical & Electrical             Dam Safety Inspectors
                  Intermediate
    60 Month      General (Civil, Mechanical &        Dam Safety Inspectors
                  Electrical)
    120 Month     Civil (focusing on specific areas   Dam Safety Inspectors
                  such as spillways, gate guides,
                  trash racks, penstocks, etc.)
    As Needed     Special (Civil, Mechanical &        Dam Safety Inspectors
                  Electrical)
                                                                      Figure 1

Since 2000, the Enterprise Maintenance Planning and Control (EMPAC) system
has been used as the consolidated database for M&R items and operating and
maintenance (O&M) projects. However, EMPAC does not provide the capability
to assign personnel, track individual inspection reports, or analyze
instrumentation data. Accordingly, Dam Safety continued to use (1) its own



1
    Nonpower dams' monthly inspections are handled by Data Systems and Inspections personnel where one
    person has the responsibility for several dams. The dikes are handled by one of the Facilities
    Maintenance personnel assigned to the dam.
Inspection 2007-11023                                                                          Page 1
Office of the Inspector General                                                               Inspection Report


databases to supplement EMPAC and (2) Primavera2 to assist with scheduling
inspections.

In 1998 and 2001, the Office of the Inspector General (OIG) conducted reviews
relating to Dam Safety's adherence to the Federal Emergency Management
Agency (FEMA) guidelines, specifically FEMA 93 Federal Guidelines for Dam
Safety. The 1998 audit (OIG Audit 98-050F-01) reviewed the reliability of data
sources and information systems used in measuring TVA's Dam Safety
Performance Indicator. The 2001 review (OIG Audit 2001-076F) evaluated
compliance with FEMA guidelines.

The current review was included in the 2007 Annual Inspection Plan and
conducted as a periodic follow-up to the review conducted in 2001.


OBJECTIVE, SCOPE, AND METHODOLOGY
The objectives of this review were to determine whether River Operations':

•     Inspection process met FEMA guidance for periodic inspection programs;
•     Personnel adhered to the inspection process for identifying, monitoring, and
      correcting inspection deficiencies; and
•     Information system databases adequately supported the inspection process.

The scope of our review covered dam safety inspections conducted in FYs 2006
and 2007. Our review utilized policies and procedures in place during FYs 2006
and 2007.3 To achieve our objectives, we:

•     Walked down the procedures for conducting inspections with a Dam Safety
      lead engineer to gain an understanding of the inspection process.
•     Reviewed FEMA's Federal Guidelines for Dam Safety and compared River
      Operations' inspection procedures to the FEMA guidance for periodic
      inspection programs.
•     Obtained and reviewed copies of corrective actions reports to ensure
      compliance with FEMA guidelines.
•     Reviewed training materials, conducted interviews, and reviewed training
      records for a Dam Safety engineer who performs dam safety inspections to
      determine compliance with FEMA guidelines.
•     Judgmentally selected five dams for review based on previous reviews,
      current issues, and location as shown in Figure 2. The FEMA hazard
      classification for four of the dams is "High," indicating either significant

2
    Primavera is software used by Dam Safety primarily for scheduling purposes.
3
    Beginning in FY 2008, a restructuring of the Dam Safety organization will take place that will affect dam
    safety inspections and may require updated policies and procedures.
Inspection 2007-11023                                                                                   Page 2
Office of the Inspector General                                                  Inspection Report


    economic impact or loss of life in the event of dam failure. The classification
    of one dam as a "Significant" hazard indicates that failure or improper
    operation would result in no probable loss of human life but could cause
    economic loss, environmental damage, disruption of lifeline facilities, or could
    affect other concerns.

             Dam Name             River    State      Type       Use       Hazard
            Wilson            Tennessee     AL     Concrete     Power     High
                              River
            Hiwassee          Hiwassee     NC      Concrete     Power     High
                              River
            Chickamauga       Tennessee     TN     Concrete     Power     High
                              River
            Fontana           Little       NC      Concrete     Power     High
                              Tennessee
            Bear Creek        Bear Creek    AL     Embankment   Flood     Significant
                              River                             Control
                                                                           Figure 2

For each of the five dams, we:

•   Obtained and reviewed the inspection reports issued during the review period
    for the dams in order to ensure compliance with FEMA guidelines and obtain
    a listing of M&R items.
•   Searched EMPAC for M&R items identified in the inspection reports to
    determine whether the items (1) had been included in the database and
    (2) were completed by the estimated due date.
•   Compared M&R items for the selected dams with previous audit information
    to assess the effectiveness of M&R completion.
•   Examined Dam Safety's permanent history files to determine whether they
    included inspection reports for the dams selected for review.

This inspection was conducted in accordance with the "Quality Standards for
Inspections."


FINDINGS
In summary, our review determined River Operations' (1) inspection process met
FEMA guidelines for periodic dam safety inspection programs; (2) inspection
personnel appeared to adhere to the process for identifying, monitoring, and
correcting inspection deficiencies based on the five dams we reviewed; and
(3) information databases provided adequate support for the inspection process.
However, our review found that (1) 57 out of 81 work orders/requests related to
M&R items identified by the dam safety inspections for the five dams we
reviewed were not completed by the estimated due date stated on the inspection
report and (2) there is a historical trend of not completing M&R items by the
Inspection 2007-11023                                                                      Page 3
Office of the Inspector General                                       Inspection Report


estimated due date. Our review also determined management has implemented
planned corrective actions in response to the recommendations in our 2001
audit.

MEETING FEMA GUIDELINES FOR DAM SAFETY
Our review determined Dam Safety's inspection process met FEMA guidelines
for periodic inspection programs. FEMA guidelines state dam safety inspections
should be scheduled on a regular basis, performed by qualified personnel,
described in writing, and monitored by appropriate officials. The guidelines also
indicate deficiencies identified during the inspections should be corrected in a
timely manner and documented in permanent files.

In comparing Dam Safety's inspection process to FEMA's guidance for periodic
dam safety inspection programs, our review determined:

•   A folder containing a checklist of tasks to be performed during each
    inspection, prior inspection reports, open and closed M&R items for the dam
    to be inspected, and details from monthly inspections conducted since the
    previous inspection was provided for the inspectors' review prior to inspection.
•   At the beginning of each month, EMPAC generated written work orders or
    work requests. These orders and requests included items noted in previous
    inspections that warranted additional attention.

For each of the five dams reviewed, we determined:

•   Dam Safety scheduled regular inspections that were augmented by special,
    as-needed inspections if an item warranted further observation.
•   Monthly inspections were conducted by trained personnel at the dams.
    Intermediate, general, and special inspections were conducted by civil,
    electrical, or mechanical engineers from Dam Safety. Both a licensed
    professional engineer and the manager of Dam Safety reviewed work
    conducted and the reports before they were issued. The issued report was
    signed by both the manager of Dam Safety and the licensed professional
    engineer and was maintained in the hardcopy history files.
•   Dam Safety maintained hardcopy history files on each dam. These files
    contained the original construction drawings and diagrams on each dam,
    inspection reports (often with diagrams and photo exhibits), and
    instrumentation data and analyses.

ADHERING TO THE DAM SAFETY INSPECTION PROCESS
Based on the five dams we reviewed, it appears River Operations' personnel
adhered to the process for identifying, monitoring, and correcting inspection
deficiencies. In evaluating whether the dam safety inspection process was being
followed, our review determined:
Inspection 2007-11023                                                           Page 4
Office of the Inspector General                                      Inspection Report


•   Regular inspections were generally conducted when scheduled. The average
    length of time between the scheduled inspection date and the date the
    inspection was actually completed was 65 days.
•   M&R items identified in previous reports were included in the file reviewed by
    the inspector prior to conducting a dam safety inspection. This allowed the
    inspector to determine if the M&R items have been corrected.
•   Dam Safety lead engineers closely monitored the results of the monthly
    inspections, conducted periodic and special inspections, and authorized and
    coordinated repair activities. Status reports on open maintenance and repair
    items were routinely generated and distributed to managers and lead
    engineers.
•   All finalized FYs 2006 and 2007 inspection reports pertaining to the dams we
    selected were stored in permanent files (often with detailed drawings, photo
    exhibits, and instrumentation data from measuring devices at the dams).

SUPPORTING THE DAM SAFETY INSPECTION PROCESS
Our review found that information databases provided adequate support for the
inspection process. Since 2000, EMPAC has been used as the consolidated
database for M&R and O&M projects. Currently, the Dam Safety Inspection
Program is supported by EMPAC, Primavera, multiple databases, and
spreadsheets that are used to schedule inspections, assign personnel to
inspections, track individual inspection reports, and analyze instrumentation data.

To review the reliability of the databases used for maintaining dam safety
inspections, we searched EMPAC for the 81 FYs 2006-2007 M&R items
associated with the five dams in our sample. We found that all the work
requests/orders were in EMPAC and being tracked.

Completion of M&R Items by Their Estimated Completion Date
We found that as of October 1, 2007, 57 of the 81 (70 percent) work
orders/requests associated with the M&R items found in the reports on the five
dams we reviewed were either still open or completed after their estimated
completion date. In the inspection reports issued, the M&R items' work
orders/requests were given an estimated completion date. These dates were
compared to the completed dates in EMPAC. Dam Safety personnel indicated
that the delay in completing the M&R items could be due to the fact that when
tasks are assigned to the roving crew the items may be delayed until there are
multiple items that need to be completed at that location, thus avoiding multiple
trips to the dams. Additionally, the due date for many items in EMPAC was
different from the estimated due date found in the inspection reports. According
to Dam Safety personnel, the dates may be extended if they are contacted by the
organization responsible for completing the item with a suitable explanation for
the delay.



Inspection 2007-11023                                                          Page 5
O
Office of the Insp
                 pector Generall                                          Inspection Report
                                                                                     R


We also com
W          mpared the number of items not resolved
                                              r        byy their expeected
completion dates
            d     in EM
                      MPAC in our 1998 and   d 2001 revieew sampless to our 200 07
sample to deetermine if completionn rates have
                                             e improved. To effectiively compa  are
th
 he analysis and apply methodology consiste  ent with pre
                                                        evious OIG reviews, M&RM
items consid
           dered open and not ovverdue, can  ncelled, or converted
                                                         c           to
                                                                      o O&M projjects
w
were excluded from the e compariso on. Our revview determmined the percentage
                                                                     p           of
sampled itemms that misssed their expected
                                  e         co
                                             ompletion dates increa  ased from
55 percent in 2001 to 60
                      6 percent in i 2007. Fu urther analyysis of our samples
                                                                      s       found:

•    Our 19988 sample sh howed onlyy 18 percen
                                             nt of the M&
                                                        &R items ha
                                                                  ad been
     completeed by their due
                         d dates, 38 percentt had been completed after their due
                                                                              d
     dates, an
             nd 44 perceent missed their due dates and re
                                                        emained oppen as of th
                                                                             he
     1998 OIGG review an nalysis date
                                    e.
•    Our 20011 sample shhowed 45 percent
                                  p       of the M&R ite
                                                       ems in our sample
                                                                  s        had
                                                                             d
     been com
            mpleted by their due dates,
                                 d      32 peercent had been comp pleted after their
     due date
            es with an average
                       a          1 months late, and 23
                               of 13                    3 percent missed
                                                                  m       theirr
     due date
            es and remaained open as of the 2001
                                             2    OIG re
                                                       eview analyysis date wiith
     an avera
            age of 11 months overddue.
•    Our 20077 sample shhowed 40 percent
                                  p      of the M&R iteems in our sample
                                                                  s       had d
     been com
            mpleted by their due dates,
                                 d      34 pe
                                            ercent had been comp  pleted after their
     due date
            es with an average
                       a       of 7 months la
                                            ate, and 26 percent missed their due
                                                                               d
     dates and remainedd open as of
                                 o September 19, 2007  7, with an average
                                                                  a        of
     18 monthhs overdue.

See Figure 3 for a com
S                    mparison of the results of our 1998
                                                       8, 2001, an
                                                                 nd 2007
samples.
                     Compa
                         arison of FYs
                                   F    2006-20
                                              007 M&R Ittems to
                                 Preevious Auddits

    100%
    90%
    80%
    70%
    60%
    50%
    40%
    30%
    20%
    10%
     0%
              Co
               ompleted & N
                          Not       Co
                                     ompleted &          Open & Overdue
                 Overdue             Overdue
                                   199
                                     98   2001    2
                                                  2007
                                                                     Figu
                                                                        ure 3
 nspection 2007
In            7-11023                                                               P
                                                                                    Page 6
Office of the Inspector General                                      Inspection Report


Currently, the priority of M&R items is based on the assigned due dates. If there
is an emergency, Dam Safety coordinates directly with Facilities Management to
have the task completed. In the previous review conducted by the OIG in 2001,
it was noted that M&R items were assigned a priority code. These priority codes
are no longer used by Dam Safety. According to Dam Safety personnel, typically
the work done by Facilities Management has to be done at certain times of the
year so the due date was a better way of ensuring the work was completed at
that time. Facilities Management indicators that are used to track M&R items go
by how many items were not completed on time, so this is watched closely by
Facilities Management. However, once the assigned due date has passed, it
becomes an ineffective measure of the priority of the M&R item.

FOLLOW-UP ON PREVIOUS AUDIT
We found that management has implemented planned corrective actions in
response to our 2001 review of dam safety. Specifically, River Operations has
implemented measures to (1) regularly update inspection checklists,
(2) appropriately route inspection reports, and (3) appropriately evaluate long,
overdue M&R items.


RECOMMENDATION
The Senior Vice President of River Operations should consider implementing a
prioritization and scheduling procedure that ensures timely completion of M&R
items.




Inspection 2007-11023                                                          Page 7
